Case No.
IN THE
SUPREME COURT OF THE UNITED STATES

In re Jennifer L. Kammerer,
Petitioner.

PETITION FOR A WRIT OF MANDAMUS
WITH APPENDICES

PROOF OF SERVICE
\j-g-A ccz-90 ~c Z,
, am employed with Postal Annex,
I
located at 2907 Shelter Island Drive, Suite 105, San Diego, California 92106. I do
swear or declare that on this date, 01
, 2021, as required by Supreme
Court Rule 29,1 served the enclosed:
Petition for A Writ of Certiorari With Appendices, (Motion for Leave To
Proceed In Forma Pauperis);
Petition for A Writ of Certiorari With Appendices;
Petition for A Writ of Mandamus With Appendices, (Motion for Leave To
Proceed In Forma Pauperis); and
Petition for A Writ of Mandamus With Appendices,
on the party identified below, by having deposited an envelope
containing the above documents in the United States mail properly addressed
and with postage prepaid.
The name and address of the party served is as follows:
The State Bar of California
Office of Chief Trial Counsel
180 Howard Street
San Francisco, California 94105

I declare under penalty of perjury under the laws of the State of
California, that the foregoing is true and correct.
Executed on OR

. 2021. isi
Print Name: v

:
I

>

A

